<html>
<title> - RADICALIZATION: SOCIAL MEDIA AND THE RISE OF TERRORISM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










         RADICALIZATION: SOCIAL MEDIA AND THE RISE OF TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2015

                               __________

                           Serial No. 114-57

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-977 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
      Art Arthur, Staff Director, Subommittee on National Security
                           Sarah Vance, Clerk

                   Subcommittee on National Security

                    RON DESANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 28, 2015.................................     1

                               WITNESSES

The Honorable Mark D. Wallace, Chief Executive Officer, Counter 
  Extremism Project, (Former U.S. Ambassador to the United 
  Nations)
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Walter Purdy, President, Terrorism Research Center
    Oral Statement...............................................     7
    Written Statement............................................     8
Dr. Daveed Gartenstein-Ross, Senior Fellow, Foundation for 
  Defense of Democracies
    Oral Statement...............................................     9
    Written Statement............................................    10
The Honorable Alberto M. Fernandez, Vice President, Middle East 
  Media Research Institute, (Former U.S. Ambassador to Equatorial 
  Guinea)
    Oral Statement...............................................    10
    Written Statement............................................    12

                                APPENDIX

Letter to Chairman DeSantis and Ranking Member Lynch from Anti-
  Defamation League..............................................    28

 
         RADICALIZATION: SOCIAL MEDIA AND THE RISE OF TERRORISM

                              ----------                              


                      Wednesday, October 28, 2015

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Duncan, Hice, Hurd, 
Lynch, Lieu and Kelly.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    Today, the civilized world faces an unprecedented level of 
violence fueled by Islamic extremism. Recent reports indicate 
that over 30,000 people from over 100 different countries have 
traveled to the conflict zone in Syria and Iraq to wage jihad 
since 2011. This group includes over 4,500 westerners and over 
250 Americans who have attempted or actually joined Islamic 
supremacist groups. Both Al Qaeda's global network and ISIS, 
among several other terrorist networks around the world, 
promote an ideology grounded in Islamic extremism and conquest.
    As the Congressional Research Service has found, these 
terrorists use Islamist and ideological and/or religious 
justification for the belief in the establishment of a global 
caliphate, a jurisdiction governed by a Muslim civil and 
religious leader known as a caliph via violent means. As the 
ideology of militant Islam spreads, the threat to the U.S. and 
our allies, such as Israel, persists. Terrorist networks like 
Al Qaeda affiliates and ISIS, as well as extremists, clerics, 
and others, seek to spread this ideology in order to recruit, 
engage sympathizers, and criticize the West. Indeed, this 
propaganda is playing a role in promoting terrorist attacks in 
the U.S. where many homegrown cases of jihadi terrorism involve 
the use of social media.
    Several sources indicate that there are 90,000 pro-ISIS 
tweets on a daily basis. While others suggest that there may be 
as many as 200,000 such tweets. Accounts belonging to other 
foreign terrorist organizations, such as Jabhat al-Nusra, Al 
Qaeda's branch in Syria, have a total of over 200,000 followers 
and are thriving. Official Twitter accounts belonging to Jabhat 
al-Nusra operate much like those belonging to ISIS, tweeting 
similar extremist content. ISIS' use of platforms like Twitter 
is highly effective. YouTube videos depicting violent acts 
against Westerners are used to incite others to take up arms 
and wage jihad.
    While foreign fighters travel overseas for training and to 
make other terrorist connections, it's becoming apparent that 
Islamic recruits in the United States and other parts of the 
world who are unable to travel to these battlegrounds do not 
necessarily need to do so in order to receive training and 
inspiration. They can engage real time with jihadists on 
Twitter, watch ISIS's murderous propaganda on YouTube, view 
jihadi selfies on Instagram, or read religious justifications 
for the killing of civilians on Just Paste It. The question and 
answer Web site, ask.fm, has also become a popular platform for 
jihadists.
    Unfortunately, ISIS's use of social media is believed to be 
resonating with vulnerable populations, particularly Muslim 
converts and susceptible alienated youth. However, 
radicalization of Americans cannot be narrowed to any single 
social or demographic profile. Instead, the Americans who are 
being radicalized to support and fight for Islamic extremists 
come from all walks of life. Those Americans who travel 
overseas to support terrorist groups can also incite others 
back home and abroad by their actions to conduct attacks and 
can themselves return back to the U.S. with training to 
complete terrorist attacks.
    The bottom line is that these foreign fighters have been 
trained in combat, have strong ties to terrorist groups, and 
recruit others to join the fight. The U.S. Government has the 
ability under the law to revoke passports on several grounds, 
including reasons of national security. The administration has 
not indicated they plan to utilize immigration controls as 
other countries have in order to stop foreign fighters. Nor is 
the danger posed to the United States by foreign fighters 
limited to those terrorists and adherents to terrorists groups 
who are U.S. citizens. In order to enter the United States, 
citizens of most countries must obtain visas issued at overseas 
embassies and consulates by the State Department.
    In 2014, the State Department issued almost 10 million 
visas to foreigners seeking temporary entry into America and 
nearly 500,000 immigrant visas for permanent residence. This 
process plays a crucial role in detecting individuals with 
terrorist ties and stopping them from entering the United 
States. Despite these safeguards, many of the subjects would 
have been convinced on terrorist charges in the United States 
since 9/11 are aliens who travel to America on visas, including 
student visas, tourist visas, and green cards. This danger is 
compounded by the large number of foreign fighters from visa-
waiver countries who do not even need a visa to enter our 
country.
    Federal and State governments as well as communities have 
begun to take action to mitigate the threat of terrorist 
propaganda on social media. However, they have experienced 
multiple challenges in combatting this threat. The 
unprecedented speed with which people are being radicalized by 
violent Islamic supremacists is difficult to keep up with and 
is straining the ability of government to monitor and intercept 
suspects. Jihadists using increasingly secure Web sites and 
applications, and communicating in code with Americans and 
westerners in the United States present even further challenges 
for law enforcement in tracking, identifying, and apprehending 
those who seek to engage in terrorist attacks.
    In order to combat this trend, we must ensure that law 
enforcement has the necessary tools to do its job. Efforts to 
counter and deter unconventional information warfare must be 
joined with other government agencies' efforts to deal with the 
problem of terror on social media.
    I thank our witnesses for their testimony today and look 
forward to examining issues related to the use of social media 
by terrorists, the extent that people are being radicalized, 
and what can be done to combat this growing problem.
    I now recognize the ranking member of the Subcommittee on 
National Security, Mr. Lynch, for his opening statement.
    Mr. Lynch. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing to examine the use of social media 
by the Islamic State and would like to thank today's witnesses 
for helping the committee with its work.
    As noted by Jessica Stern and J.M. Berger, in their recent 
book, ISIS, the State of Terror, the Islamic State, also known 
as ISIL, has been prolific in its ability to exploit a variety 
of social media platforms. According to the authors, jihadists 
have been making slick propaganda for decades. But for a long 
time, these productions catered to an exclusive audience of 
potential recruits, never making the evening news or creeping 
into the collective consciousness of the West. However, in 
stark contrast, ISIL and its online supporters, continue to use 
Twitter, Facebook, WhatsAp, and other social networking 
services to broadcast their terrorist messages to a global 
audience in real time and significantly extend their 
recruitment, mobilization, and financing efforts beyond the 
battlefields in Iraq, Syria, and Afghanistan.
    Last week, the Combatting Terrorism Center at West Point, 
again a J.M. Berger report, issued the existence or noticed the 
existence of over 40,000 accounts actively supporting the 
Islamic State on Twitter, with an estimated 2,000 accounts 
tweeting in English. A majority of these users form the core of 
the ISIL's aggressive online recruitment strategy. This 
strategy is designed to introduce recruitment targets to the 
Islamic State ideology, to groom and lavish attention on 
potential recruits through subsequent communication in private 
online channels, and directly call them to jihad. Ranging from 
lone-wolf style attacks at home, to migration to the Islamic 
State. The Islamic State even has a name for its most 
enthusiastic online users, mujtahidun, or the industrious ones. 
Jessica Stern and J.M. Berger note that these online supporters 
are far more active than their counterparts in Jabhat al-Nusra 
in Syria or Al Shabaab in Somalia in using social media tactics 
to expand their reach.
    The impact of ISIL's extensive social media presence has 
already been witnessed in the unprecedented flood of foreign 
fighters to Iraq and Syria. A few months ago, I had the 
opportunity to travel with several House and Senate Members in 
a congressional delegation to the Syrian-Turkish border, an 
area north of Aleppo. We were briefed on the lack of meaningful 
progress in our train and equip program of so-called moderate 
rebels. We also met with representatives of about a half dozen 
rebel groups. And the only common characteristic between these 
groups was, one, they all saw Bashar al-Assad and his regime as 
the primary enemy. And, second, the all use WhatsAp as their 
platform for communication.
    As reported in September of 2015 by the Bipartisan 
Congressional Task Force on Combatting Terrorism and Foreign 
Travel, nearly 30,000 foreign fighters have traveled to Iraq 
and Syria in 2011 to join the Islamic State, including an 
estimated 250 individuals from the United States who have 
sought to fight on the side of the extremists in ISIL conflict 
zones. There is also more direct evidence of the effect of 
Islamic State's online strategy here at home. According to the 
West Point report, at least 60 individuals have been arrested 
in the United States in 2015 for criminal acts in support of 
the Islamic State. Social media has played a role in the 
recruitment or radicalization in almost every single case.
    As ranking member for the Financial Services Committee's 
Task Force to Investigate Terrorism Financing, I am well aware 
that ISIL and other terrorist groups are also using social 
media platforms and applications to coordinate funding for 
terrorist activity. Last year, David Cohen, who was then the 
undersecretary for Terrorism and Financial Intelligence at 
Treasury, remarked that constraining the flow of funds to 
terrorist groups is, ``particularly challenging in an area when 
social media allows anyone with an Internet connection to set 
himself up as an international terrorist financier.'' In 
particular, we have seen that private funding networks are 
relying on social media to solicit so-called charitable 
donations and inconspicuously connect donors with recipients on 
the battlefield. In response to the exploitation of social 
media by ISIL and other terrorist groups, Twitter and other 
service providers have slowly, and I must say grudgingly in 
some cases, begun to take some action to suspend terrorism-
linked users accounts. This is often called a whack-a-mole 
approach to countering terrorism messaging, as suspended users 
can simply create new accounts. Jessica Stern and other 
analysts have noted that to a certain extent this strategy can 
prove effective in disrupting for a while and eventually 
downgrading terrorist social networks.
    In addition, in 2011, the U.S. has established the Center 
for Strategic Counterterrorism Communications at the State 
Department, which for the past couple years has focused on 
countering ISIL's propaganda. However, as noted by one of 
today's witnesses, Ambassador Fernandez, the Center's budget 
over 3 years totaled the cost of a single Reaper drone, $15 
million, and has remained the same since 2012. The team of 
operators and editors working in Arabic and English has not 
exceeded 15 people at any one time. The Center has also been 
operating amidst congressional budget constraints and hiring 
freezes that result at Federal agencies when Congress continues 
to enact short-term funding resolutions instead of traditional 
appropriations bills. We may have some progress in that regard 
as pending.
    Mr. Chairman, it's clear that we must do more to counter 
the social media threat posed by the Islamic State and other 
terrorist groups. I look forward to discussing what additional 
steps we can take to strengthen our counterterrorism strategy 
in this regard, as well as support corresponding international, 
private sector, law enforcement, and community efforts.
    Thank you, Mr. Chairman. And I yield back the balance of 
our time.
    Mr. DeSantis. Thank you.
    Mr. DeSantis. I'll hold the record open for 5 legislative 
days for any members who would like to submit a written 
statement.
    Mr. DeSantis. We'll now recognize our panel of witnesses. 
I'm pleased to welcome Ambassador Mark Wallace, chief executive 
office of the Counter Extremism Project, Mr. Walter Purdy, 
president of the Terrorism Research Center, Mr. Daveed 
Gartenstein-Ross, senior fellow at the Foundation for Defense 
of Democracies, Ambassador Alberto Fernandez, vice-president of 
the Middle East Media Research Institute. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you could please stand and raise 
your right hands.
    Do you solemnly swear that the testimony you're about to 
give will be the truth, the whole truth, and nothing but the 
truth so help you God?
    Thank you. Please be seated. All witnesses answered in the 
affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record. Ambassador Wallace, you are recognized 
for 5 minutes.

                       WITNESS STATEMENTS

           STATEMENT OF THE HONORABLE MARK D. WALLACE

    Mr. Wallace. Thank you, Mr. Chairman. Chairman DeSantis, 
Ranking Member Lynch, and members of the subcommittee, thank 
you for the opportunity to appear before you. It's obviously my 
great pleasure and honor to appear with my distinguished 
colleagues on this panel.
    The hijacking and weaponization of social media platforms 
by extremist groups to radicalize, recruit and plan violent 
attacks against innocent people around the world is a cancer 
that continues to grow largely unabated. Today, there are at 
least 43,000 active pro-ISIS Twitter accounts endlessly 
amplifying and repeating ISIS's messages of hate and terror. 
The more than 30,000 people who have joined ISIS from around 
the world is a testament to the power of social media.
    On September 11 of this year, CEP, the Counter Extremism 
Project, released profiles of 66 Americans who have joined or 
allegedly attempted to join the Islamic State of Iraq and 
Syria, as well as other Americans accused of planning attacks 
on U.S. soil, providing financial assistance to extremist 
entities, or propagandizing on their behalf. These individuals 
have very different backgrounds and experiences. But the one 
characteristic that they seem to share is active participation 
on social media. In addition, we will soon release profiles on 
54 of the most prolific social media propagandists. Through 
#CEPDigitalDistruption, we have identified and reported 
hundreds of extremists to Twitter. And in June, we expanded our 
campaign to include monitoring of Twitter accounts in French, 
Italian, German, and Turkish.
    We respect and honor our American constitutional traditions 
of free speech. Our standard for reporting an account is 
incitement of violence or direct threats. To be clear, we are 
concerned about various social media platforms. Our focus is on 
Twitter because it's effectively the gateway drug where 
individuals, usually young people, are first exposed to 
propaganda and radical content. It's, of course, an enormously 
successful platform, Twitter, ubiquitous. In many ways, that 
success has spurred its misuse by online jihadis. We wrote 
three letters to Twitter. But the response we have gotten is 
dismissive to the point of dereliction. Twitter's attitude can 
be best summarized in a quote provided to Mother Jones magazine 
by a Twitter official. They said ``one man's terrorist is 
another man's freedom fighter.'' I want to repeat that. ``One 
man's terrorist is another man's freedom fighter.'' Of course, 
this statement is insipid and unserious, particularly in the 
context of Al Qaeda, ISIS, and many other extremist groups.
    Sally Jones epitomizes Twitter's failure to act 
effectively. Jones, known on Twitter as Um Hassan Al-Bretani, 
is a British ISIS operative. In September, Jones issued a kill 
list of 100 U.S. servicemen. She was named an SDN global 
terrorist and placed on the United Nations' Security Council's 
sanctions list. And, yet, in October, Jones urged violence on 
Twitter against Navy Seal Veteran Robert O'Neil and Dillard 
Johnson, a former Army sergeant. If Twitter can beef up its 
policies as it relates to bullying and harassment of women, why 
does it show such dismissiveness when it comes to those 
promoting and glorifying terror.
    We stand ready to work with Congress, the administration, 
and any company, including Twitter, in finding the right mix of 
remedies that effectively attacks this growing problem, while 
protecting our values and liberties. We believe there are clear 
and immediate changes that all social media companies could 
make. First, one of the problems we have encountered is that 
many social media companies place accounts that have been 
reported into a rolling queue. We believe that by giving CEP as 
well as others like the State Department trusted reporting 
status and opening a direct line of communication, we can more 
easily and swiftly identify and remove the most notorious 
extremists online.
    Second, our campaign relies in part on our stakeholder 
audience also reporting accounts. But the reporting process on 
Twitter and other social media sites is long and cumbersome. 
Twitter recently started its streamlined reporting process for 
women to report harassment or stalking which is great. But 
reporting of violent extremists still falls into a catchall 
category.
    Third, while every organization is different, we believe 
it's critical that America's most important tech companies show 
a united front when it comes to fighting violent extremism. 
This would include a clear public policy statement that 
extremist activities will not be tolerated.
    Fourth, shine the bright spotlight of transparency in the 
most extremist, most egregious extremist accounts. This past 
year, one of the most influential social media jihadi, Shami 
Witness, was exposed and immediately shut down his accounts and 
stopped operating. We can collectively agree that the most 
egregious of cyber jihadis do not deserve anonymity or the 
right of free hate and incitement of terror speech through the 
use of Twitter or any other social media platform.
    Fifth, companies should more proactively monitor content. 
It's one thing to take down, but they should more proactively 
monitor. While no social media company has been able to resolve 
the problem completely, companies like Google and Facebook are 
at least willing to have a conversation and take steps to 
address the issue.
    I am convinced that there are strategies that we can bring 
to bear on those who attempt to hijack and weaponize social 
media platforms. The majority of social media companies are 
U.S. companies. But online misuse has global consequences. It's 
time that social media companies like Twitter take 
responsibility for the global implications of their platform 
and their lack of action.
    I would respectfully ask that my full remarks be included 
in the record. Thank you, Mr. Chairman. And thank you, Mr. 
Ranking Member Lynch.
    Mr. DeSantis. Thank you, Ambassador Wallace.
    [The statement of Mr. Wallace follows:]
    [Written statements can be found at: https://
oversight.house.gov/hearing/radicalization-social-media-and-the 
rise-of-terrorism/]
    Mr. DeSantis. Mr. Purdy, you are recognized for 5 minutes.

                   STATEMENT OF WALTER PURDY

    Mr. Purdy. Chairman DeSantis, Ranking Member Lynch, 
distinguished members of the subcommittee, thank you for 
inviting me today to testify on this important issue.
    As I was driving down here this morning, I thought back to 
almost 14 years ago when I sat with an American young man from 
California, who actually was radicalized in California, 
traveled overseas to Pakistan, made his way into Afghanistan 
where he trained in a terrorist training camp. Today, 
individuals here in the United States don't have to undertake 
that journey that this individual from California did 14 years 
ago. Today, anybody with a smart phone or a computer can become 
radicalized online.
    Radicalization today takes so many different forms. There 
is no single pathway for someone becoming radicalized. And, 
yet, we see groups like Al Qaeda, al Nusra, ISIS all using 
social media and Internet today to act as enablers, providing a 
medium for these individuals seeking that path of self-
radicalization. We see many works like Milestones, The Call to 
Global Jihad by Abu Musab al Suri, Constants on the Path of 
Jihad by Anwar al-Awlaki. These constant themes keep coming up 
in ISIS, al Nusra, and other terrorist social media, seeking to 
help radicalize these individuals before they go overseas and 
travel. These works constantly come up. And individuals here in 
the United States that have gone to social media sites, like 
some that you have mentioned in your opening statements, have 
helped to manipulate and motivate these individuals to 
undertake activities that run the spectrum from raising money, 
providing material support, undertaking to fight jihad here in 
the United States, traveling overseas to enter countries, 
Turkey, Greece, and others on there way to fight in Iraq and 
Syria, to plotting operations here in the United States.
    Many of these individuals that we see have started that 
process of radicalization by going online, using the Internet. 
Individuals like Nidal Hasan, the Fort Hood shooter, exchanged 
dozens of emails with his spiritual mentor, Anwar al-Awlaki. 
American citizens, Awlaki and Adam Gadahn, both radicalized and 
recruited other individuals, sending people to various sites to 
help develop their radicalization. Virtual mentors today have 
communicated with potential recruits and others to deliver 
their messages to these individuals in blogs, Web sites, 
chatrooms, and forums.
    The use of encrypted communication today, is a barrier in 
which law enforcement has to deal with to try to get to the 
bottom of this very challenging problem. Adam Gadahn, in a 
propaganda video years ago, stated, I advise every brother who 
wants to work for this religion not to undertake any action 
before taking advantage of the wide range of resources 
available today on the Internet. Whether a group like Al Qaeda, 
Al Nusra, or ISIS, they all constantly point those individuals, 
seeking to wage jihad, here in the United States or abroad to 
the Internet. The United States faces various challenges from 
homegrown violent extremists who have been radicalized to 
launch attacks here in the United States.
    We have seen a growing list of Americans who have traveled 
to fight jihad and support terrorists groups like ISIS 
overseas. Former director of the FBI, speaking about Americans 
who had gone overseas to fight, stated, it raises the question 
of whether these young men will one day come home. And, if so, 
what type of things will they undertake here.
    Today, any American uses social media to gain any sort of 
information and an understanding of all kinds of things that 
are placed on the Internet. But these individuals are using 
this particular platform so that they can gain access to jihadi 
fighters in theater and also to help recruit and radicalize 
potential American fighters. The number of American fighters 
that have taken selfies, created digital propaganda of 
themselves, fuse this particular effort that we see.
    Since the Syrian conflict escalated, we have seen over 300 
Americans attempt to or travel to or fight in Syria. 
Individuals like Nicole Mansfield, convert to Islam from Flynt, 
Michigan. Individuals from Virginia, Massachusetts, Florida 
have all gone and fought overseas. An American from Florida, on 
May 25, 2014, actually went and became their first suicide 
bomber in Syria. He grew up in a gated community. This 
particular social media platform is the fire that fuels the 
radicalization and the challenge that we face. I would say one 
additional thing that we need to understand.
    Mr. DeSantis. I appreciate it. We'll do the written 
comments. Your time is up. And we'll be sure to give you an 
opportunity in the question and answer to expand on that.
    [Prepared statement of Mr. Purdy follows:]https://
oversight.house.gov/hearing/radicalization-social-media-and-the 
rise-of-terrorism/]
    Mr. DeSantis. And, now, Mr. Gartenstein-Ross, you're 
recognized for 5 minutes.

              STATEMENT OF DAVEED GARTENSTEIN-ROSS

    Mr. Gartenstein-Ross. Thank you, Chairman DeSantis, Ranking 
Member Lynch, distinguished members. I appreciate the 
opportunity to testify before you today.
    What I would like to focus on is the broader view of how 
social media is having an impact on the strategic information 
environment. Social media is revolutionary in so many ways. And 
I thought both the opening statements and also my colleagues 
have done a very good job of articulating those ways. But, 
ultimately, it's something which is tried and true in an armed 
conflict, that is, it's a tool of strategic communication.
    I think in addition to understanding the direct impact of 
what ISIS is doing, we also need to understand how an 
organization like this, which has achieved a technical mastery 
of this strategic communication tool and also is branded by its 
over the top violence, we need to understand the impact that 
has on the overall information environment.
    Chairman DeSantis, you spoke of the many extremist groups 
today that are operating in Syria and elsewhere and the many 
extremist groups that use this social media platform. ISIS is 
much more adept at it than others in terms of directly 
mobilizing people to their cause. But other groups also have 
their communication strategies.
    ISIS, of course, was born out of the Al Qaeda organization 
and now challenges it for supremacy over the global jihadist 
movement. In so many ways, ISIS's rise has harmed Al Qaeda, 
including stealing away their fighters, stealing away their 
affiliates. But in other ways, it's actually benefited the Al 
Qaeda organization. In fact, today, Al Qaeda members are 
speaking openly of the ways in which ISIS's rise has helped 
them in terms of their communication.
    In the latest issue of al-Risalah, which is an Al Qaeda-
affiliated magazine published out of Syria, Usama Hamza 
Australi, who is a longtime confederate of the Al Qaeda 
organization, referred to ISIS's rise as a blessing in 
disguise. The reason he gave is that previously when people 
talked about extremism, they talked about people, Australi 
said, who wage jihad as being the extremists. Australi said now 
they know that it's not people who wage jihad that are the 
extremists, it's not those who avoid it, who are moderates, 
rather, he said, ISIS is the extremists and we, Al Qaeda, are 
the moderates.
    Bin Laden recognized before his death that grave damage had 
been done to the Al Qaeda brand through the excesses of ISIS's 
predecessor, Al Qaeda in Iraq. He wanted to re-brand Al Qaeda. 
And he wanted to do this so badly, so deeply that he even 
thought about changing the organization's name. Well, two 
things have given Al Qaeda tremendous opportunities. One of 
which is the awful Sunni-Shia conflict which is racking the 
region, which has shifted strategic priorities and made some 
Sunni gulf states see Al Qaeda as a possible counterbalance 
against Iran.
    The second thing is the rise of ISIS, which Al Qaeda is 
able to use as a foil. And they've done this successfully, much 
more successfully than we're now acknowledging and in ways that 
going to cause lasting problems for us. Right now, Al Qaeda is 
receiving state support. This is out in the open. The Jaysh al-
Fatah Coalition, of which both Al Qaeda Syrian affiliates 
Jabhat al-Nusra and also the other jihadist group, Ahrar al-
Sham are leading members. Receives open support from Qatar, 
Turkey, and Saudi Arabia. In Yemen, Al Qaeda is at the 
forefront of opposing the advance of Arabian-backed Houthis. 
Right now, Al Qaeda controls territory on the ground in Yemen, 
in Al Mukalla, which is the 5th largest city, and also in Aden. 
In fact, we're seeing the collapse of the anti-Al Qaeda 
sanctions regime with Mohammed Islambolly, a high-level member 
in the Khorasan Group in Syria, being delisted by the United 
Nations just 2 days ago.
    Our own actions have an impact and prevent us from 
countering some of these negative developments. Let's not lose 
sight of the fact that our actions are communicated acts. When 
you look at our policies in Syria, which the Oversight 
Committee also is concerned about, one thing that has come up 
in the past few weeks after Russia started bombing is 
complaints from officials about how Russia was bombing U.S.-
backed rebels.
    There's an amazing article by Ken Dilanian in the 
Associated Press, published on October 10, where he talks about 
how U.S. officials said that our rebels were gaining ground 
prior to the Russian bombing. When he names where those rebels 
were gaining ground, in Idlib, in Hama, it's obvious that the 
people at the forefront were Jaysh al-Fatah, the coalition 
that's associated with Al Qaeda. I wish this were conspiracy 
theory. I wish that this was hyperbole.
    But U.S. officials are talking about the fact that our 
rebels are helping Al Qaeda make advances on the ground. This 
is of grave concern because it's ultimately a communicated act. 
Our actions are communicated acts. And if we take actions that 
are contrary to our values and arguably contrary to U.S. law, 
that can stop us from preventing this tremendous shift where Al 
Qaeda is operating much more openly. Thank you.
    Mr. DeSantis. Thank you.
    [Prepared statement of Mr. Gartenstein-Ross 
follows:]https://oversight.house.gov/hearing/radicalization-
social-media-and-the rise-of-terrorism/]
    Mr. DeSantis. Ambassador Fernandez, welcome. You're 
recognized for 5 minutes.

        STATEMENT OF THE HONORABLE ALBERTO M. FERNANDEZ

    Mr. Fernandez. Thank you, Mr. Chairman. And thank you, 
Ranking Member Lynch, other members, and ladies and gentlemen. 
It's a pleasure to be here with you today.
    The ISIS appeal is truly revolutionary. This is a complete 
package, which includes a strong ideological component, deeply 
rooted in a specific Salafi jihadist reading of the period of 
formative Islam, a political project of building the caliphate 
state which is seen as a going concern and a 21st century 
appeal to substantive and consequential participation, aimed at 
youth searching for purpose and identity, in a seemingly 
aimless, empty, and hedonistic world.
    Social media itself is not the heart of the issue. Social 
media is the accelerant. It's the thing that turbocharges a 
poisonous and powerful message. This appeal that ISIS has, has 
come closer than that of many other Islamic terrorist groups in 
mainstreaming its discussion. Mainstreaming its world view, and 
has, as other witnesses have said, ignited a terrorist media 
arms race with other groups seeking to match and even try to 
supercede what the Islamic State is doing.
    The propaganda of ISIS is connected to the reality on the 
ground. The carnage in Syria and the victories in Iraq are 
eventually what led to the declaration of the caliphate. And we 
saw online support spike through the roof in the aftermath of 
these events.
    What are some of the practical steps that can be taken? 
Number one, we need to realize that military victory is the 
best way to weaken ISIS propaganda appeal. There is a 
connection between the real world and the propaganda. The 
propaganda gets weakened when the reality on the ground 
changes.
    Number two, as has been said here, there needs to be much 
better policing of social media. Not all social media companies 
are the same. Facebook has made real progress. But YouTube, 
Twitter, and others lag behind. It's overdue for Congress and 
for others to have a serious exchange of views, a serious 
conversation with social media companies on the terrorist 
presence on the Internet and how these companies violate terms 
of services, let alone the question of legality. Better 
policing of the Internet will decrease the number of ISIS 
propagandists and help those who are fighting it be increased. 
There is value in making it inconvenient for them.
    Number two, people are radicalized in clusters as part of a 
personal relationship either directly or in person online. We 
know that recent converts, 40 percent of ISIS, people who want 
to join ISIS have been recent converts in the United States. 
And second generation immigrants are particularly at risk. We 
need to empower domestic and international civil society by 
both consistent funding and training to be on all the time, to 
be intervening and engaging with these lost and questing souls, 
enlist people who have a talent for engagement.
    Third, Syria is important. ISIS seeks to present Syria as a 
mobilizing factor to mobilize people, to radicalize them, to 
get them to do something. They present a false image of the 
reality in Syria. And there is power in helping the Syrian 
people, victims of ISIS, survivors of ISIS violence, being able 
to communicate the reality on the ground that is often not 
known by a teenager in Mississippi or in California.
    Finally, the last point I would mention is the issue of 
volume. Volume has value. We all know in our personal lives how 
you may see an obscure idea or strange idea be amplified by 
social media because a lot of people are pushing it. It's 
incredible to me that to this day, the United States, friendly 
countries in the West and in the Middle East are out numbered 
by the Islamic State. And you need volume to make the message 
more powerful. You need a network to fight a network.
    There have been some small steps taken by the State 
Department, by friendly governments to begin to do this but we 
need to do a lot more. You need to encourage people and inspire 
them like ISIS does to do propaganda, or you need to rent them. 
But you need to find a way to form loose, open source 
communities of interest or swarms that can swarm back and push 
back against the ISIS message. It's not an impossible thing to 
do. It can be done. We just need to have a little more will and 
a little more support in doing so. Thank you very much.
    Mr. DeSantis. Thank you.
    [Prepared statement of Mr. Fernandez follows:]https://
oversight.house.gov/hearing/radicalization-social-media-and-the 
rise-of-terrorism/]
    Mr. DeSantis. The chair now recognizes himself for 5 
minutes. Ambassador Wallace, you talked about how you can be in 
a queue if you report something to social media companies. But 
I noticed there was that incident, it was probably a month, 
month and a half ago, where you had an individual, a deranged 
individual, film him killing a newspaper reporter online. And 
he was posting that on social media. And that got taken down 
very quickly. And rightfully so. So they actually, they 
definitely have the capacity to do it. So why, what is keeping 
them from acting with that same swiftness when you're talking 
about terrorism?
    Mr. Wallace. Thank you, Mr. Chairman. It's obviously the 
question of the moment in my opinion regarding many of the 
social media companies, particularly Twitter. There's this 
notion, and perhaps it's hubris, that we have a right to social 
media in the Constitution, that we have a right to tweet in the 
Constitution. Last time I checked my Constitution, there's no 
reference to Twitter. It's a reference to free speech.
    And for history, throughout our history, we have 
thoughtfully debated the appropriate limitations on what is 
legitimate speech and what is not legitimate speech. And I hope 
by this hearing and by my colleagues that we have that debate 
on the nature of some of these communications. Twitter does not 
effectively take down accounts quickly enough or search them 
out quickly enough when it does so in a variety of other areas, 
whether it's stalking of women or other abuse, like the example 
that you referenced, child pornography and the like, that's the 
first problem. They don't effectively take it down when it's 
up. Even when we report it, it's not taken down quickly.
    And the second problem, if I may, is they come back. 
Congressman Lynch referred to the game of whack-a-mole. I used 
that in a previous testimony. And I agree that whack-a-mole is 
apt analogy except for one point. When you bop one in whack-a-
mole, it comes back with fewer followers. But look at this 
example. You have a jihadi tweeting that he is having his 100th 
account suspended with similar names. That's unacceptable. We 
have to have a debate. We have to have a discussion at this 
committee about how we, if Twitter and the likes of Twitter 
don't find ways of solving this problem themselves, we need to 
find a way to help them solve that problem.
    Mr. DeSantis. There's this #CEPDigitalDistruption. Can you 
explain what that means and talk about the work you're doing to 
combat radicalization propaganda?
    Mr. Wallace. Thank you, Mr. Chairman. As my colleague 
Ambassador Fernandez said, we took it upon ourselves to create 
a hashtag to try to report accounts and digitally disrupt, if 
you will, the misuse of online accounts. So we have created a 
team of young people, many of whom are behind me today, and in 
offices in New York and Washington, where we try to report and 
take down as many accounts as we can, effectively engaging in 
the game of whack-a-mole. And by creating a dynamic online 
constituency, we call on those that support our effort to also 
report accounts. But we need a partner. We need a partner in 
the likes of Twitter that will respond quickly to our work and 
hopefully the work of others.
    I think Alberto mentioned that we need to have a thousand, 
he didn't use these words, but a thousand flowers blossom. We 
should do it in private. The government should do it in public. 
If we all report these accounts and create a network to take it 
down, we can be effective. #CEPDigitalDisruption, is our bit in 
that effort.
    Mr. DeSantis. Mr. Purdy, you mentioned radicalization by 
people like Anwar al-Awlaki. What tools are used to radicalize 
individuals that I think that are the most concerning?
    Mr. Purdy. I think the tools that we constantly see people 
using on social media are videos and also referring individuals 
to books and others individuals who can help in that 
radicalization process. You know, 14 years ago when that kid 
from California was going down that pathway of radicalization, 
he had to go and sit with somebody out there in California not 
in a mosque but after mosque.
    Today, these individuals, anybody with a phone can now go 
online and they're directed to particular sites where they can 
watch videos. They can actually be tweeting with somebody 
that's in Syria today who is sending them back pictures and 
look at what we are doing today. And especially for young 
people who ISIS is targeting, and they are targeting young 
individuals. If we look at the people, the individuals who have 
been locked up the last year, you know, the individuals are 
clearly, there are certain themes, they're all very young, 
they're disenfranchised in one way or another.
    Last night, I just happened to, in speaking to a group, I 
had a girl come up and speak to me. And she said I was a 
student with Zachary Chesser in Falls Church, Virginia, I went 
to high school with him. And these are some things that I 
remember about this. And this individual kind of what changed 
as this young woman knew him, kind of that radicalization 
process. She said all of a sudden, he started growing a beard. 
All of a sudden, he started not hanging out with kids and 
individuals, that almost self-cloistering of this one 
individual, and then changing and not wanting anything to do 
with females or other Westerners.
    And we have seen that from Mohammad Sidique Khan in London 
with the July 2005 bombers that, again, self-radicalized 
themselves, being able to go online and go to particular sites 
where they can acquire this information.
    Mr. DeSantis. Great. My time is expired. I now recognize 
the ranking member, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you. I want to thank you again, members of 
the panel, for your wonderful testimony.
    The struggle in dealing with some of the platforms, whether 
it be Twitter or WhatsAp or Facebook, and I acknowledge that 
there's variable response rates from those different 
organizations. The problem we have is that we have to try to 
balance national security. And we all agree that ISIL is out 
there and is an immediate threat. We also have to try to 
balance that against the rights of free speech that people 
have. And that's been a struggle here.
    But in reality, Ambassador Wallace, your group has been out 
there, you're engaged in some, you're doing some good work, and 
you're reporting on some of these efforts over the top. Where 
do you draw the line? I mean, where do you, you know, it's, you 
know, Mr. Purdy, you mentioned, Milestones by Qutb, you know, 
which was written probably back in the 1950s, maybe even 
earlier. I'm not sure if I'm right on that. But it's a piece of 
literature that, you know, has led to the radicalization of 
some groups. But people might argue that has value elsewhere in 
Islam.
    Where do you draw the line where, you know, some postings 
are a threat and you need to take them down? And are the things 
that we are seeing now an easy call? Or do we get into this 
debate? Some of these people are clearly, you know, they're 
putting videos on there of executions, things like that, which 
is an easy call I would imagine. What are the, you know, how 
does your organization do some of its greatest work in terms of 
forcing, you know, these platforms to take down some of this 
stuff?
    Mr. Wallace. Thank you, Congresswoman. Look, I think that 
the analysis and this debate that you just framed very 
eloquently, is a debate that we have had in other contexts 
before. We have, at times in our history, weighed free speech 
versus a challenge that we think is against the law or a 
challenge to our society. And there are a whole realm of areas 
of speech that we have said is wrong and we prohibited it. I 
think the mere fact that we're having this discussion is 
advancing the ball. I would just hope that we could invigorate 
an even bigger discussion about that debate because whatever 
comes of it will be better than we have now in my opinion.
    But look, I think that the analysis for us is relatively 
simple. If I were to send a hunting knife to ISIS, I think all 
of you would say Wallace, you're providing material support to 
ISIS because that hunting knife could be used for dastardly 
things. And a hunting knife is pretty benign. So, ultimately, 
it's really a material support analysis. And we feel that if an 
online propagandist is recruiting, I think material support is 
seeking financial support, material support, is calling to act 
on behalf of a terrorist group, that's material support. I 
think the propaganda sometimes can be a closer call. But I 
think we should have the debate. I personally believe if you 
are a Twitter person and putting out boatloads of propaganda on 
behalf of the specially designated national ISIS, I think that 
that should be prohibited speech. And I think we should have 
the debate on that.
    And so I think the analysis is already found in our law. 
It's a question of expanding upon it and ensuring that we 
implement that in the context of social media.
    Mr. Lynch. Okay. That's helpful. Anybody else want to take 
a crack at that? I have another follow-up question in terms of, 
you know, how we actually accomplish this. There are two models 
that, and the testimony here this morning, one is sort of a 
cyber battalion where we would have a government screening 
process of, you know, taking these down and looking at them.
    The other is, has also been raised by testimony this 
morning, which is, you know, let a thousand flowers bloom where 
you have private society, individuals out there reporting, so 
that we use that force multiplier, if you will, of just people 
online, if you see something, report it, and then have others 
take action on that. Is there a preference?
    I realize the scope of this is pretty large. But is there a 
preferred approach as to having government do it versus calling 
on individuals citizens to be more vigilant? Mr. Gartenstein-
Ross? Doctor?
    Mr. Gartenstein-Ross. Sir, I think you can do both. And I 
think it's best if you have both functioning at once.
    The main thing that I would argue for both government and 
also civil society activists is that when you look at what ISIS 
has done online, it's very innovative. And often our own 
efforts aren't as innovative and aren't as strategic.
    In terms of strategy, and I think Ambassador Fernandez did 
a good job in his testimony of highlighting some areas of 
vulnerability for ISIS. I mean, there's a group that is so 
invested in its brutality, in its, what I call its winner's 
message in my testimony, that once chinks are put in this 
armor, once there are clear areas in which they're failing and 
not living up to this image of strength, then they actually 
very much are in danger of a brand reversal.
    I would suggest that one thing we can look to in terms of 
bodies of literature is literature being put out by people in 
the, who do academic work on business. They're very much an 
organization that has a certain brand. And it's a brand that's 
working now but it won't always work.
    The second thing I'll say in terms of innovativeness, we 
have talked about taking down their accounts individually. And 
that has a disruptive effect. But, ultimately, they're in an 
online environment. We actually have the capability to 
literally map every single member of a distribution network, 
every single account, and take them all down at once, as 
opposed to reporting them individually. That's thinking 
innovatively. Let's not take them down one at a time, let's 
take them all down.
    And Twitter is willing to take down these accounts. They 
don't have a good algorithm to take them down. But these 
accounts are violating their terms of service. And so I think 
that there's an area in which either from the governmental 
angle or from a civil society angle, one can help to map these 
networks, and you'll have a much more disruptive effect if you 
take down the whole network as opposed to one note at a time.
    Mr. Lynch. All right. Thank you.
    Mr. DeSantis. The gentleman's time has expired. The chair 
now recognized Mr. Duncan for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman. And, you know, many 
people today, both liberal and conservative, say that the 
original decision to go into Iraq in 2002 was the biggest 
foreign policy mistake in the history of this country. William 
Buckley, for instance, said similar words to that shortly 
before he passed away. George Will wrote a column saying that 
the neoconservatives, who were the strongest advocates of our 
war, were really the most--very misnamed people, he said 
actually they were the most radical people in this city. And 
the more we read about this, the worse it seems to get.
    Just yesterday, for instance, I read that the New York 
Times had written that most of the leadership of ISIS and most 
of its soldiers were former members of the Iraqi Army and that 
we made a mistake when we followed our policy of de-
Baathification and disbanding the Iraqi Army shortly after we 
started that second war in Iraq. Do you gentlemen think the New 
York Times was correct? Are most of the leadership of ISIS 
former Iraqi military people?
    Anybody? Yes, sir.
    Mr. Fernandez. I'm happy to take that. Yes, sir, it seems 
like the majority of the leadership are, if you talk about 
sheer numbers, have a connection with the Iraqi Army at some 
point. There was Islamization process that occurred ini the 
last years of Saddam Hussein where the Baathist ideology of the 
government was, they allowed Islamists to flourish.
    But what causes ISIS to succeed I contend are three 
elements. One is the one you mentioned, absolutely Iraq. Two, 
Syria. And, three, the rise of social media. When ISIS does its 
propaganda in 2013, 2014, it's not telling people to go fight 
in Iraq. It's telling people to go fight in Syria because the 
Muslims are being killed in Syria.
    So, yes, the leadership of ISIS is overwhelmingly Iraqi 
with a strong former military component. But the message that 
they use, first was about Syria and after June of 2014 is about 
the caliphate.
    Mr. Duncan. Let me say this, I know some of us are wanting, 
some people will want us to go in a big way back into Syria. 
Yet, General Petraeus testified a couple of weeks ago at a 
Senate hearing that Putin's foreign reserves are less than $200 
billion total. And I saw the 60 Minutes report this past Sunday 
night about ISIS and it said in that report, and I have the 
transcript here, that we're spending $10 million a day, in our 
bombing campaign, which has been going on for 14 months, that's 
$300 million a month. Apparently over the 14 or 15 months we 
have been doing this, we have spent about $4.5 to $5 billion on 
this so far.
    Yet, the military man said that ISIS has been able to 
replace its bed with new recruits. So the estimated number of 
enemy figures remains unchanged, 20 to 30,000 last year, 20 to 
30,000 this year. David Martin, the CBS correspondent, said so 
as long as they can keep bringing fighters in there, are you 
just shoveling sand against the tide? And then he ended up his 
report saying this, he said some 25,000 American bombs have 
been dropped so far, all the firepower and technology of a 
superpower, even supersonic stealth aircraft directed against 
an enemy in pickup trucks intent on dragging the Middle East 
back to the Middle Ages.
    I think at some point, since we are over $18 trillion in 
debt, at some point, somebody is going to have to start showing 
some progress as far as I'm concerned. And you can do anything 
to ISIS, the worst punishment that you can come up with. But, 
on the other hand, we can't just keep throwing billions and 
billions and billions of dollars and not showing any progress. 
And, in fact, some people think it's helping to radicalize or 
even help recruit troops for ISIS.
    At some point, these people in the Middle East are going to 
have to start fighting their own wars because we can't afford 
to just keep pouring billions or even trillions down these 
Middle Eastern rat holes. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from California, Mr. Lieu, for 5 
minutes.
    Mr. Lieu. Thank you, Mr. Chair. I agree with Representative 
Duncan that we're wasting taxpayer funds by bombing in Syria. I 
have seen no good results from that. In fact, you've seen more 
Syrians flee. And that sort of goes to my question to you, 
Ambassador Fernandez, which, I agree with you, that you say 
that social media is not the cause of radicalization, it's an 
accelerant. And really the problem is the message. Don't you 
think the U.S. bombing in Syria actually gives a lot of 
propaganda to ISIL and ISIS?
    Mr. Fernandez. Thank you, sir. If you look at the 
propaganda, actually U.S. bombing of Syria is not a major 
element in ISIS propaganda. It's occasionally featured. It's 
not a big element in the propaganda. The number one element in 
the propaganda is about building this paradise on Earth, 
building the caliphate. Come and join us, come and emigrate, 
let's build the beautiful future, you know, like communists or 
Nazis talk about the beautiful future that you're building.
    But if you look at the propaganda, they talk about America, 
the head of the snake. They talk about destroying America. But 
very few of their videos actually show U.S. bombing. That's 
just not there. There are a handful. But considering the 
thousands of videos that they produce, it's a tiny part of what 
they show.
    Mr. Lieu. So they don't talk about U.S. attacking them or 
killing them?
    Mr. Fernandez. They talk about the U.S. in general. In 
other words, for caliphate jihadist groups, the U.S. is the 
enemy. The U.S. is the new Rome. And they were saying that 
before we started bombing them. And if we stop tomorrow, they 
would continue to say that.
    Mr. Lieu. All right. So their message is more about 
building the caliphate there?
    Mr. Fernandez. And conquering the world, yes.
    Mr. Lieu. And do they say conquer the world? Or they just 
want their ISIL area?
    Mr. Fernandez. Well, they want their ISIL area obviously to 
start out with. But the new five dinar gold coin that ISIS 
issues, on the back it has a map of the world.
    And when the ISIS spokesman explained why the ISIS gold 
dinar has the map of the world, they said because that is the 
place that the rule of the law has to take place. And he says 
specifically it means three places, Constantinople, Istanbul of 
the Islamic prophecy, Rome, and America. Those are the three 
ones that they talk about. Obviously, this is rhetoric but this 
is what they say.
    Mr. Lieu. Okay. And your view is U.S. bombs in Syria isn't 
really affecting their propaganda?
    Mr. Fernandez. It's not a major element of it. It's there. 
But it would rank really low in the top themes that they use. 
It's not a primary theme in their propaganda.
    Mr. Lieu. And does their leadership sort of get upset when 
their folks get killed by U.S. bombs?
    Mr. Fernandez. They don't tend to talk about that. So 
actually it does. Because, obviously, if your message is 
[speaking foreign language], the Islamic State is here to stay 
and growing. And why is it growing? Because God's permission is 
that it is to grow. Anything that shows them as losers, 
anything that shows them as going backwards is problematic with 
them. So when a person is killed, obviously, they say this 
person is a martyr. But they don't usually play up that such 
and such a person was killed by the Americans.
    Mr. Lieu. Great. Thank you. And then, Ambassador Wallace, 
thank you for your public service. I think some of the things 
you said I do find alarming. I do not believe that the U.S. 
Government should be prohibiting speech based on content. And 
if you had the Government sort of refereeing what is propaganda 
or not, it becomes very problematic because if we're going to 
start shutting down a Twitter account because someone says I 
support ISIL, then what happens if someone says, you know, I 
support Assad? Sort of a brutal dictator.
    Or what if someone says I support the Ku Klux Klan? At some 
point, how does the Government determine what message it's 
going to shut down and what they're not? And I'm all for what 
you do and what the private sector does and what non-profits 
do. I just believe that Government ought not be sitting there 
deciding what content to shut down or not. And even if we did, 
I believe the U.S. Supreme Court would strike it as 
unconstitutional.
    And so with that, I'll let you have a chance to answer 
that. And then I'll yield back.
    Mr. Wallace. Thank you, Congressman Lieu. First of all, I 
think we would be remiss in saying that it's American bombs. 
The President has done a very capable job, in my opinion, of 
establishing an Arab coalition that is bombing ISIS. And some 
of the horrible deaths that we have seen of soldiers in theater 
have been non-Americans, such as the Jordanian pilot that was 
shot down and killed. So let's be clear, there are Arab bombs 
that are going in there as well as American bombs.
    Look, on your point, I think there are a lot of lawyers in 
the room. I suffer that affliction as well. I don't think this 
is as controversial as you think. We're having a thoughtful 
discussion about it. We have had this thoughtful debate for 
years about all sorts of speech. And we have concluded some 
speech is not acceptable. For example, the Ku Klux Klan, I 
don't mean to pick on any particular horribly obnoxious group 
that is entitled to speak freely in the United States, but they 
get to say I'm a member of the Ku Klux Klan if they want to. 
That's not what we're talking about here. We have litigated and 
have an entire body of law that says some speech is legitimate, 
some is not.
    I've offered a framework under the material support area of 
what speech should not be legitimate and should be prohibited 
in the context of terrorism. And I think that, for example, 
just saying look, ISIS, maybe they stand for some good things, 
I think that that's a much closer call than saying please go 
out and kill for ISIS, please go out and give money to ISIS, 
please go out and give your life to ISIS. That should be 
prohibited speech. That's what is dominating the Internet. 
That's where there are tens of thousands of accounts. And I 
think we can thoughtfully have this debate on Capitol Hill. And 
your opinion is absolutely, even though I disagree with it, a 
legitimate opinion. And let's have that debate. And let's 
figure out where we draw the line.
    We have done it many times in the course of our law, from 
stalking women to abuse to screaming fire in a crowded theater, 
to child pornography. Let's have it in the context of 
terrorism.
    Mr. Lieu. Thank you. I yield back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from Georgia for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman, and thank you, panel, 
for being here today. Very interesting and informative, and I 
appreciate the expertise that you bring to the table.
    Mr. Purdy, let me begin with you. Can you describe for me a 
little bit about the program, the Mirror Image? I understand 
that it's something that allows law enforcement to walk in the 
shoes of terrorists or something to that effect. Could you 
describe that a little further, please?
    Mr. Purdy. Yes, the Mirror Image Training to Combat 
Terrorism is a program that we designed almost 14 years ago to 
allow law enforcement, military, and intelligence to step into 
the shoes of a terrorist cell or a network. And the idea behind 
that was what Sun Tzu said, you know, if you know the enemy and 
you know yourself, you're going to be able to defeat them. And 
so what we came up with after a series of interviews with some 
individuals, we thought that would be a good training format to 
get people to understand, first and foremost, what is it that 
these terrorists are trying to do.
    One of the things I think we have to do a better job is 
getting people to understand what terrorist organizations are 
trying to do, when they put a communication online. So through 
Mirror Image, we would take a group of usually 40, 50 people, 
and for a week to 2 weeks, we would show them by having them 
become the terrorists.
    So FBI, law enforcement, military, military intelligence, 
intelligence folks, so that they could then actually have done 
this. Usually they're working against these individuals, but 
it's been quite eye-opening for these individuals to see it 
from the other side. There's a lot of great lessons that can be 
learned by reading what they're putting out, by doing the types 
of things that they do, and trying to get people to understand 
that mentality so as they combat these individuals, they'll 
have a greater understanding and hopefully be able to deal with 
the situation.
    Mr. Hice. So I take it then from your answer, that you 
believe this has been quite beneficial?
    Mr. Purdy. I have had military individuals tell me that 
when they went to Iraq, that training saved lives. I've had law 
enforcement individuals say what we learned in your program 
enabled us to not only understand the terrorists, but to be 
somewhat predictive in what a terrorist was attempting to do, 
so yes, sir.
    Mr. Hice. Very good. Let me transition over to you, Mr. 
Gartenstein-Ross. What do you think at the end of the day is 
actually attracting people to ISIS caliphate?
    Mr. Gartenstein-Ross. I think there's multiple things 
attracting people to the ISIS caliphate, and I think it's 
somewhat different based upon personality and region. ISIS 
actually has on some of their web pages a different interface 
that you receive depending upon where you're from. So if you're 
looking at them and you're a westerner, for some of their pages 
you'll get a different page than if you're visiting from the 
Middle East.
    There's two major themes in their propaganda, though, that 
I would point to, even though there are many things that draw 
people to them. One theme is their strength. And as I said, 
they're extraordinarily brutal, but they're okay with that 
because their brutality, beheading people, burning people 
alive, this is a sign that they're winning. This is a sign of 
how strong they are. That's one element that's very strong in 
their propaganda.
    A second element, and Charlie Winter writes about this for 
the Quilliam Foundation quite well, a British-based think tank, 
is that they're building a state. Ambassador Fernandez referred 
to that. That's the second aspect of their propaganda, both 
destruction and also creation. I think both of those are 
vulnerable to disruption. On the one hand, we were talking a 
bit about whether the bombing campaign has accomplished 
anything or not. Right now ISIS is fighting a ten-front war. 
And if you look at the past couple of months, they've 
experienced one loss after another. One of their biggest gains 
this year, Ramadi is under a lot of pressure, and the odds are 
that they will lose it within the next, say, 8 to 10 months.
    Mr. Hice. If you don't mind, let me interrupt. I've only 
got about a minute left, and just open up a question to each of 
you. Do any of you know what the objectives are of our current 
administration in terms of their national strategy for 
countering violent extremism?
    So I take it from that that no one knows what our strategy 
is?
    Mr. Wallace. The President in his global summit did 
identify two areas he was focusing on. We might disagree with 
the parameters of that, but he focused on training youth around 
the world to promote tolerance and counterextremist ideology at 
a young person's level and generation.
    Mr. Hice. Promote tolerance, to extremism?
    Mr. Wallace. You asked a question about what they're doing. 
I'm not taking sides here, sir. I'm giving you----
    Mr. Hice. No. I'm just asking is that what you're saying?
    Mr. Wallace. I'm saying that's what I understand that the 
President's agenda is. I'm giving you an answer to your 
question. I'm not in the administration, sir. I'm retired.
    Mr. Hice. All right. Well, Mr. Chairman, I see my time is 
expired. It's amazing to me that we virtually have no 
understanding of our own administration's strategy to deal with 
this, and what we do hear of what we believe is quite alarming. 
With that I yield back. Thank you.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from Texas for 5 minutes.
    Mr. Hurd. Thank you, Chairman. Ambassador Wallace, good to 
see you again. It's been a while since we served together in 
New York City. One of my first questions to you, sir, you 
mentioned the individual that had opened and closed a hundred 
accounts on Twitter by a different name. What are you proposing 
that Twitter do about it?
    Mr. Wallace. Good to see you, Congressman, and thank you 
for allowing me to appear before you as well. Look, there was a 
classic example--I'm sure some of my colleagues remember 
Mujahideen Miski, who was one of the most influential and 
prolific online Jihadis. He was a Somali-American, ostensibly 
tweeting from Somalia, we believe Iraq, ostensibly killed in a 
drone strike a couple months ago, I think guys? He was 
incredibly prolific and kept coming back. I don't remember his 
handle, but it was Mujahideen Miski 1, take him down; 
Mujahideen Miski 2, take him down. And it would rely on people 
reporting his reappearance on Twitter. I think that----
    Mr. Hurd. But them taking it down, isn't that a success?
    Mr. Wallace. Well, only after reporting. I think where 
Twitter was failing to act is that if he was coming back with a 
similar handle, it shouldn't have had to go through the fairly 
elaborate time-consuming reporting process. Twitter should have 
said, ah, Miski 2 is up; let's make sure he goes down. Miski 3 
is up, and take him down. And I think that's one of the issues 
with Twitter that they are not actively policing in an 
appropriate manner terrorist content on their site.
    Mr. Hurd. So when your organization gets this kind of 
information, do you share it directly with Twitter? Do you 
share it with Department of Homeland Security? Do you share it 
with the FBI? Who do you share it with?
    Mr. Wallace. We certainly share it with Twitter, and we go 
through a reporting process with Twitter that is somewhat 
cumbersome.
    One of the things we have called for, I have called for in 
this testimony and in previous testimony, is that trusted 
reporting status, which would be an accelerated reporting 
status, be granted to organizations like ours, the State 
Department, some of my colleagues on this panel, so that it 
doesn't fall into the really lengthy queue, if you will, of 
reporting on Twitter. Twitter has not yet taken that action. We 
think that's a problem.
    Mr. Hurd. And earlier, I just want to make sure I'm clear. 
Were you intimating that social media companies are providing 
material support to terrorists?
    Mr. Wallace. I'm intimating that we should have that 
debate, and I'm glad that you asked the question, and I'm 
honored to provide the answer.
    Mr. Hurd. So when I was chasing al Qaeda in Pakistan and 
Afghanistan in the back alleys, they would do things called 
night letters. They would write a letter, leave it on a 
doorstep. Were we intimating that the companies that produce 
pens and pencils and paper are providing material support to 
terrorists?
    Mr. Wallace. I've learned over the years never to throw 
back a question to a Congressman asking you a question, but I'm 
really tempted to do it here. What about a Kalashnikov? What 
about a hunting knife? I think that our debate has to say--we 
have debated in other contexts--maybe a pencil isn't material 
support, but is a hunting knife, is an AK, is an RPG----
    Mr. Hurd. I would say that providing an account on a social 
media site is not material support. I don't think that's 
anywhere close to material support, and if these organizations 
are not providing taking these things down, they are working 
closely with the Department of Homeland Security, so, you know, 
I have to echo the concerns of the gentleman from California 
about talking about, you know, yes, it's good to have a 
conversation about legitimate speech, but I think we also need 
to be careful. You're not a law enforcement organization. 
You're not an intelligence organization. The information that 
you're getting is valuable and should be shared, but saying 
that that's the only game in town is a little scary.
    Changing gears, there is a Professor visiting from Spain at 
GW, Dr. Javier Lesaca, who has done some very interesting work 
on analyzing the social media campaigns of ISIS. They do four 
campaigns a day. They are promoting it in about 49 different 
languages. My question is, who's out there that is countering 
this ideology? And Ambassador, I think it was you. Actually it 
was, Mr. Gartenstein-Ross. You mentioned about some of these 
failures of ISIS. They talk about we have this great 
functioning land. Well, it's not really that much. They 
encourage young men to come to ISIS to fight the infidel, but 
you're more likely to get a bomb dropped on your head or a 
bullet in your chest than you are to find excitement in Syria.
    This is not just for the Federal Government to get that 
message out. It's going to be organizations. It's going to be 
our Sunni Arab partners in the region. Who is out there 
actually countering that narrative and getting that message 
out?
    Mr. Gartenstein-Ross. First of all, let me say, sir, that I 
agree with that entirely; that it's not just a job for the 
Federal Government. You have a variety of centers which are out 
there. A new one just opened up in the United Arab Emirates in 
Doha, which is a joint project of the United States and the 
Emirates. There is also a communication center which has opened 
in Nigeria. So I think there are some interesting innovations 
that are occurring to try to get the U.S. to work with local 
partners.
    Secondly, there are civil society organizations, such as 
the one that I mentioned before, the Quilliam Foundation, which 
really makes an effort to try to push out messages that are 
counter to extremism. I think some of the more effective ones 
highlight the bad experiences of defectors, people who had gone 
over to fight with the Islamic State and found that life was 
not all they will thought it was cracked up to be. I think that 
those are both important.
    A third thing I would mention is that tech companies, in 
fact, are starting to get interested in this problem set. If 
you look at, and this has been reported openly, Google/YouTube 
has helped to finance content providers, including in the 
United States, people from the American Muslim community who 
have messages that are quite contrary to ISIS' message.
    I will highlight one final thing, which is one problem I 
have noted in the past, is that ISIS is very good at creating 
facts, fabricating facts. It makes itself look stronger than it 
actually is. One area where I think the U.S. Government can 
play a very good role, is contacting media companies with fact 
sheets in order to counteract ISIS' exaggerations. Things like 
when they convinced CNN, BBC and others that they controlled 
the City of Derna in Libya, which they never did. Being able to 
quickly reach out to media contacts and say you've reported 
this. ISIS has fabricated this fact. It's untrue. Would be 
helpful in just making sure that the mainstream media doesn't 
end up echoing ISIS' propaganda.
    Mr. Hurd. Excellent. Thank you, sir. I apologize for going 
over time, Chairman. I yield back.
    Mr. DeSantis. We just have so many people in the queue. You 
know so, I appreciate it I know Steve and I are going to have 
some more questions, so we will go another round if the other 
members are inclined.
    We have been talking about, and rightfully so, about the 
propaganda about this global caliphate, and it's a Sunni 
caliphate, but I've noted that Ayatollah Khamenei will tweet 
different things. And so, Mr. Gartenstein-Ross, what is the use 
of social media from the Shi'ite extremism side? Iran is 
establishing a de facto Shi'ite caliphate from Afghanistan 
border to the Mediterranei Sea. Are we seeing the same type of 
techniques being used with groups like Hezbollah and other 
Shi'ite-type militias in maybe Yemen or these places?
    Mr. Gartenstein-Ross. Yes. We're seeing similar efforts on 
the Shia side. Most of the U.S.' focus is on Sunni extremism 
Groups. An analyst who I think has done the best work on this 
is Phillip Smyth, S-m-y-t-h, who wrote a monograph earlier this 
year published by the Washington Institute for Near East 
Policy, and he has looked extensively at the Shia side. They 
also do mobilize people through social media. They also have 
Shia foreign fighters who have gone to Syria, and it presents a 
similar set of concerns.
    The final thing I'll mention there is similar to ISIS, they 
also are committing grave atrocities in the theater. While they 
have different goals than ISIS, it also is something which 
definitely is running counter to U.S. strategic interests and 
is causing a major humanitarian problem.
    Mr. DeSantis. How has the social media affected terrorism 
by Palestinians against Israelis? You look at the intifada at 
the beginning of the last decade, yeah, we had the Internet and 
stuff, but you didn't have Twitter. You didn't have a lot of 
this stuff. Now I know that there's some significant problems 
that are going on. Are we seeing evidence that some of the 
Palestinian terrorists are using social media?
    Mr. Gartenstein-Ross. Definitely. There's a few ways in 
which social media has a direct impact on the current nascent 
intifada that's occurring. One is it's a remarkable mobilizing 
tool, a tool that can get people out, and you can have a 
campaign that's organized via social media. People can organize 
much more quickly than they could previously.
    The second thing, one thing that is occurring in this 
conflict is people will be out there, for example, throwing 
rocks with a cell phone, and they'll be taking photos of what's 
happening to them in order to try to make sure that they 
capture the moment, and it gets disseminated right away via 
social media. So it is a tool that is at the center of how 
people are tactically thinking about this current conflict.
    Mr. DeSantis. Yeah. Great. And then when someone gets 
killed, I know some of the headlines in the New York Times will 
say somebody was killed by a rock. They won't say how or what. 
But anyway, that's not a discussion for today.
    I'm going to yield to Mr. Lynch for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I'd like to move out a 
little bit from the tactical discussion we have been having 
about social media, and really look at this from a long-term 
strategy perspective, if we could for a minute. I spent a lot 
of time on this issue. I'm one of the few that have actually 
gone in and talked to Assad. It was a few years ago.
    The paradox here, and I've also met with all the major 
rebel groups, and I just have to say that this idea, this 
fiction of a moderate Syrian rebel group, I just don't see it, 
not in the terms of moderate in which we in this country regard 
it. The rebel groups are all Islamic. Oddly enough, Assad--and 
he needs to go. No question about it. There's a consensus 
around that, except for Russia, and Iran and Hezbollah--
ironically he provides protection to religious minorities. And 
the people that we're trying to help, and I've met with them in 
refugee camps in Gaziantep and Istanbul, and they're Islamists, 
and they want to create an Islamic republic, and to various 
degrees they want to you push an Islamic model on the 
population there. So it provides a real dilemma for us.
    I heard some testimony yesterday from Secretary of Defense 
Ash Carter and also our new head of the Joint Chiefs General 
Dunford. They were talking about Sergeant Wheeler, who had been 
killed recently--God bless him and his family--they were 
talking about the possibility of putting boots on the ground to 
some extent for various purposes. And, you know, if you go back 
to what Petraeus talked about in Iraq in terms of the surge, 
and giving the Iraqis an opportunity there, his 
counterinsurgency program, which was very successful until we 
handed off our responsibility, that was the weak link in his 
program, in the program. I see it as the weak link in any 
program that we have with Syria.
    When you look at Syria, let's just say that Assad goes, 
either by negotiation or by force, who do we hand off to? And 
I'm not saying that rhetorically. I'm asking you who do we hand 
off to? Because I met with all the players there, and I mean, I 
don't think anyone is there, of any significant strength that 
we could say, okay, we have killed the bad guys, if that's what 
we say, or we have taken out Assad. Here you go. I don't see 
anybody in the region now who could actually step in and do 
that job.
    So if you're going to envision using boots on the ground, 
you ought to have an exit strategy going in, and I just don't 
see anybody we can hand off to, and I think we would be sucked 
into a program where we would have to try to create--this is 
Iraq 2.0. We would have to create the institutions to guide 
that country for the next 10, 15, 20 years.
    So I know you weren't hired to do this job, but you all 
spend time on this. If you could just share your thoughts on 
that whole question with me, that would be great. Mr. Wallace?
    Mr. Wallace. Thank you for your thoughts. I would say that 
Assad isn't doing the job. That's one thing that we do have to 
remember. I mean, obviously Syria is an area of incredible 
turmoil and otherwise, and on top of him not doing the job 
because of the incredible migration problem, the human 
suffering, the toll that's taken there, he is the proxy of 
Iran.
    And I think we have somewhat overlooked it. Not to any 
intention, I don't want to speak for my colleagues, but the 
State Department and I think all of us still view Iran as the 
number one state sponsor of terrorism in the world. I think the 
growth of Iranian hegemony in the region has stoked the 
sectarian flames. So I think we have a double problem, if you 
will.
    Assad isn't the solution. Whether or not he was before, 
it's beyond, we don't get a do-over; it's whatever it is now, 
and I think we can do much better in finding a better solution 
than Assad and the human suffering that's taking there. And 
hopefully not continue to empower the Iranian regime, which I 
think has been regrettably on the march since the Joint 
Comprehensive Plan of Action and its proxies in Lebanon, Syria, 
Iraq and now Yemen.
    So I think that the concern is Iran and the number of Shia 
and the destabilizing influence of Iran throughout the region 
that is stoking sectarian conflict and radicalizing a lot of 
the Sunnis. Let's remember that the initial rebellion against 
Assad was actually pretty secular. It was a secular movement 
against Assad, but that was a missed opportunity.
    Mr. Lynch. Doctor, I know you wanted to say something.
    Mr. Gartenstein-Ross. Definitely. I think your question is 
a very important one, and that's why I mentioned this issue of 
Syria in my testimony. I think that fundamentally what we're 
doing in Syria and what we do in Syria is linked to our ability 
to communicate effectively on these issues related to 
extremism.
    I agree with the way that you framed it, very strongly. And 
I think that in addition to the fact that these groups are not 
what we would regard as moderates, we should also note that the 
degree to which al Qaeda is strong enough on the ground, to 
really dominate Syrian factions whom we'd otherwise consider to 
be acceptable. So in the LA Times on October the 12th, you have 
an individual Major Fares Bayoush, who is the commander of 
Fursan al Haq, which is a group we regard as moderate, who said 
that some level of coordination with al Qaeda-style groups was 
unavoidable.
    The quote in the LA Times is: ``There is something 
misunderstood by world powers. We have to work with Nusra Front 
and other groups to fight the regime in Daesh. And this is 
someone who we're supporting. That reenforces your point about 
the rebels, and we have to fundamentally understand that.
    TOW missiles have used--American-provided TOW missiles--
have been used to help these groups advance. Now let me be 
clear. It's not because the United States is trying to help bad 
people. I think that the U.S. tends to be on the side of the 
angels, but we're very blunderingly on the side of the angels. 
And i think that we wanted to back this uprising against Assad, 
given that he is an awful dictator; but then when the facts on 
the ground revealed just how much extremism factions were 
dominating the battle space, we didn't adapt. Our adaptation 
was to go ahead and help those extremist factions to gain 
ground.
    In addition to the idea of boots on the ground being 
problematic for the reasons that you articulated, I think it is 
important to look into our current policies. As I said, 
following the Russian bombing, U.S. officials were talking 
about how they considered our program of supporting rebels 
through the CIA to be successful. And when they looked at rebel 
successes, they were pointing to areas where the Nusra Front 
gained ground.
    If we are backing rebels to help al Qaeda to make advances, 
we can't very credibly say to Saudi Arabia, to Qatar, to 
Turkey, now you guys cant support them because we are 
indirectly, not directly, but we're doing the same thing. And I 
think that's something which is very much worth looking into, 
including the question of whether these programs violate U.S. 
law and the question of whether Congress has been given 
accurate information on what the rebel groups that we're 
supporting are doing.
    Mr. Lynch. I'm not sure--Ambassador would you mind?
    Mr. DeSantis. No.
    Mr. Lynch. Ambassador Fernandez.
    Mr. Fernandez. I would make two points. I think your 
concerns are well-stated. There's a shocking reality, and that 
is that for millions of Sunni Arab Muslims in that area of 
Syria and Iraq, ISIS and ISIS rule seems as the least bad 
option considering the alternatives. That's a huge problem for 
U.S. foreign policy.
    And on the rebels, on the moderate rebels, you're right. 
There was a golden opportunity earlier this year when Jaish al-
Fatah, the Conquest Army supported by the Qataris and the 
Saudis took over most of the province of Idlib. This is a 
province that had a Christian minority and a Druze minority, so 
it was a golden opportunity for them to prove their tolerance. 
And the Christian minority has ceased to exist. They're gone. 
And the Druze minority was forced to convert to Islam. The 
rhetoric was a little less nasty, a little less hard-edged than 
ISIS, but the reality was not much different.
    Mr. Lynch. All right. Mr. Purdy?
    Mr. Purdy. I think one of the problems we have is when the 
United States removes leaders, and there's kind of a historical 
list in this region from Egypt, kind of Mubarak; Yemen, Salah; 
Libya, Qadhafi, and now we're talking about removing or trying 
to push out the President of Syria. None of these individuals 
are angels, and none of these individuals are people that our 
government would want to truly be partnered with because of 
human rights and all kinds of other things that these 
individuals have done.
    But when we push one of these leaders out, there always 
seems to be a void that's created. And what we constantly see 
is whether it's AQAP or al Qaeda or ISIS, they step right into 
that void that we have had a hand in kind of creating. And it 
causes us long-term problems because now as we try to look and 
gain coalition partners and other people, there are other 
geopolitical reasons maybe why somebody might want to go in and 
do something or hold back because we have created a mess.
    Mr. Lynch. Okay. I thank you for your indulgence, Mr. 
Chairman, I went way over time. Thank you.
    Mr. DeSantis. No problem. I'd like to thank our witnesses 
for taking the time to appear before us today. If there's no 
further business, without objection, the subcommittee stands 
adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               
               
               


                                 [all]
</pre></body></html>
